                                        PROTEUS INC.
                                         VISALIA, CA
                                            ***

                                   AUDIT REPORT ON
                          U.S. DEPARTMENT OF LABOR GRANT
                                 NUMBER AC-10751-00-55




                                    Performance Audit for
                        Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public Accountants,
under contract to the Inspector General, and, by acceptance, it becomes a report of the Office of
Inspector General.


                                                     __________________________________
                                                      Assistant Inspector General for Audit




                                                         Report Number: 21-03-013-03-365

                                                         Date Issued: September 5, 2003
                                           TABLE OF CONTENTS


                                                                     
                                                                                                                          Page


ACRONYMS ....................................................................................................................i

EXECUTIVE SUMMARY ..............................................................................................1

INTRODUCTION AND BACKGROUND......................................................................3

OBJECTIVES, SCOPE, AND METHODOLOGY..........................................................4

FINDINGS........................................................................................................................6

1. Equipment and Supply Purchases That Benefit More Than One Funding
   Source Were Directly Charged to the DOL Grant ......................................................6

2 Equipment Purchase Over $5,000 Was Made Without Prior DOL Approval............9

3. Performance Data Reported to ETA Not Supported ................................................10

SCHEDULES

    Schedule A - Schedule of Costs Reported .................................................................11

    Schedule A-1 - Schedule of Costs Reported, Supplemental Information ..................12

    Schedule B - Schedule of Performance Reported ......................................................13

APPENDIX

    Appendix A – Proteus Inc. Written Response to Draft Report ..................................16
                                 ACRONYMS


CFR    -   Code of Federal Regulations

DOL    -   U.S. Department of Labor

DMSF   -   Division of Migrant and Seasonal Farmworkers

ESL    -   English as a Second Language

ETA    -   Employment and Training Administration

FSR    -   Financial Status Report

GED    -   General Equivalency Diploma

NFJP   -   National Farmworker Jobs Program

OMB    -   Office of Management and Budget

OIG    -   Office of Inspector General

WIA    -   Workforce Investment Act




                                         i
                                   EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Stokes & Knight P.A. to perform an audit of the Workforce Investment Act
National Farmworker Jobs Program (NFJP) to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and non-profit
organizations to operate the program within 48 states and Puerto Rico. We selected a statistical
sample of 9 grantees for review and tested the direct and indirect costs claimed for
reimbursement by these grantees to determine if the costs claimed were reasonable, allowable
and allocable under the cost principles set forth in OMB Circular A-122, or OMB Circular A-87,
as applicable, and grant guidelines, and performance reported to determine whether it was
accurate and properly supported. The NFJP was audited for program year (PY) 2000 (July 1,
2000 through June 30, 2001).

This report discusses the results of our audit of Proteus Inc. under DOL Grant Number AC-
10751-00-55. Under the authority of the Workforce Investment Act (WIA), DOL's Employment
and Training Administration (ETA) awarded Proteus Inc. a grant in the amount of $3,177,813 to
provide training and services to eligible migrant and seasonal farmworkers in the central valley
of the state of California to strengthen their ability to achieve economic self-sufficiency. Proteus
Inc. operates an administrative office and education center in Visalia with satellite offices in
Fresno, Tulare and Kings Counties. During PY 2000, Proteus Inc. placed 188 participants in
unsubsidized jobs, and provided 43 with supportive services.

We found that some costs not directly attributed to the NFJP were charged against the Proteus
Inc. grant, rather than to all programs that benefited. We also found a violation of the special
clauses of the grant requiring prior authorization for equipment purchases over $5,000. The
performance data totals reported were found to not have adequate backup support and required
amendment to agree to supported totals.

Findings

For the audit period, Proteus Inc. reported costs of $3.02 million and served 507 participants.
We question $34,281 charged to the DOL grant as described below:

1.   Equipment and Supply Purchases That Benefit More Than One Funding Source Were
     Directly Charged to the DOL Grant.

We question $27,047 as a result of Proteus Inc. failing to allocate costs that benefited more than
one grant. We recommend that ETA recover the $27,047 and require Proteus Inc. to revise its
policies to ensure that costs that benefit more than one cost objective are properly allocated and
all cost objectives bear their fair share of costs.




                                                 1
2. Equipment Purchase Over $5,000 Was Made Without Prior DOL Approval.

A scanner costing $7,234 was directly charged to the DOL. There was no prior approval as
required in the Special Clauses and Conditions section of the grant, which requires the grantee to
receive prior approval from the DOL/ETA grant officer before purchasing equipment costing
over $5,000. We recommend that ETA recover the $7,234, and require Proteus Inc. to develop
the necessary policies and procedures to comply with all grant conditions.

3. Performance Data Reported to ETA Not Supported.

The performance data that Proteus Inc. reported to ETA did not agree with the data made
available to us. Subsequent to our audit, Proteus Inc. prepared and provided us with a properly
supported amended program status summary. We recommend that ETA accept the new program
status summary as an amended report, review what effect the changes will have on performance
goals and require Proteus Inc. to revise its reporting procedures to ensure that all reports
submitted to ETA are properly supported.




                                                2
                        INTRODUCTION AND BACKGROUND


The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National Farmworker
Jobs Program (NFJP). The intent of NFJP, under section 167 of the Workforce Investment Act,
is to strengthen the ability of eligible migrant and seasonal farmworkers and their families to
achieve economic self-sufficiency through job training and other related services that address
their employment related needs. Assistance from the NFJP is accessed through the NFJP grantee
partners and local One-Stop Centers.

Proteus Inc., a 501(c)(3) organization, has operated various employment and training programs
serving migrant and seasonal farmworkers in California since 1967. Proteus Inc. operates an
administrative office and education center in Visalia with satellite offices in Fresno, Tulare and
Kings Counties. In addition to the Department of Labor migrant farmworkers grant, Proteus Inc.
operates about 30 grants.

Proteus Inc. was awarded a grant in the amount of $3,177,813 to provide the following types of
training and services to eligible migrant and seasonal farmworkers:

       1. Classroom training - This training includes English as a Second Language (ESL),
          General Equivalency Diploma (GED) Classes, general employment skills classes, and
          vocational and technical job training.

       2. On-the-job training - This training activity involves a contractual placement of a
          participant in an actual work environment. This allows an employer to hire an
          employee and be reimbursed up to 50 percent of wages paid during a specified
          training period.

       3. Work experience - This training is to provide some non-farmwork employment
          experience to make a participant more attractive to prospective employers. In this
          situation the participant is paid by Proteus Inc. and placed in the public or private
          non-profit sector to obtain general employment skills.

       4. Other related assistance services - These services include emergency services to meet
          shelter and transportation needs, pesticide safety training while still in farmwork, and
          referrals to other assistance providers within the one-stop network.




                                                3
                     OBJECTIVES, SCOPE, AND METHODOLOGY


The primary objectives of our audit were to determine whether the costs claimed by Proteus Inc.
for the period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable,
allowable, and allocable under the cost principles set forth in OMB Circular A-122 and grant
guidelines, and to determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National Farmworker Jobs Program
under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements and Audits
of Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed in
the Findings section of this report.

Compliance with Laws & Regulations

In order to determine compliance with the above mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on the
compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of non-compliance are discussed in the Findings section of this report.

Our sample universe of participants included all participants enrolled during the period. In
program year 2000, Proteus Inc. served 507 participants, of whom 358 exited during the year.
The types of terminations reported for those participants exiting the program during the year
included; Entered Unsubsidized Employment (188), All Other Terminations (104), Supportive
Service Only (43), and Employability Enhancement Only (23).

                                               4
Our sampling technique was a statistical random number selection so that all participants had an
equal chance of being selected. Procedures performed on the selected participants included
reviewing the eligibility determination, reviewing the types of services provided and the cost of
those services, and reviewing the program outcome for those exiting the program.

The costs claimed and performance reported by Proteus Inc. is presented on the Schedules of
Costs Claimed and Performance Reported in this report. These schedules, included as schedules
A and B, respectively in this report, are based on the information reported to ETA in the
Financial Status Report and the Program Status Summary.


Entrance and Exit Conferences


We held an entrance conference with Proteus Inc. officials on February 19, 2002. Our fieldwork
was performed at Proteus, Inc’s. office in Visalia, CA, during the period February 19 through
April 4, 2002. We held an exit conference with these same officials on April 4, 2002, to discuss
our findings and to obtain their comments.

Auditee’s Written Comments


A draft copy of this report was provided to Proteus Inc. on February 26, 2003. Proteus Inc.
provided their written response to the report March 27, 2003. The written response is included as
Appendix A, beginning on page 16.




                                                5
                         FINDINGS AND RECOMMENDATIONS



1. Equipment and Supply Purchases That Benefit More Than One Funding Source Were
   Directly Charged To the DOL Grant

Proteus Inc. purchased $36,158 in equipment and supplies and charged the entire amount to the
DOL grant. These purchases benefited a number of funding sources and, therefore, should have
been distributed equitably among the funding sources that benefited. We question $27,047, the
amount in excess of the DOL benefit.

Attachment A of OMB Circular A-122, A. 4. Allocable Costs, states:

         A cost is allocable to a particular cost objective, such as a grant, contract,
         project, service, or other activity in accordance with the relative benefits
         received.

We reviewed the documentation attached to each invoice to determine what the purchases were
to be used for. Of the total amount of equipment purchased, $19,143 was purchased for specific
individuals. To determine the percentage allocation of these costs to the various funding sources,
we reviewed the time allocation records of these individuals. We question $14,456 that should
not have been charged to DOL.

The remaining $17,015 in equipment purchases was for upgrades in the network server used to
support all computer operations at the Visalia, CA administrative office. To determine the
proper allocation to DOL, we reviewed the overall time spent on all grants. Based on the percent
of time attributed to DOL, we question $12,591.

Recommendations:

We recommend that the Assistant Secretary for ETA:

    1.   Recover the $27,047 questioned.

    2.   Require Proteus Inc. to revise its policies to ensure costs that benefit more than one cost
         objective are properly allocated and all cost objectives bear their fair share of costs.




                                                  6
Auditee’s Response

Re: Question Costs of $14,456 (Equipment Purchases)

…All funding sources Proteus Inc. contracts with in our service area has implemented the OMB
option, establishing “equipment definitions” at lower levels ranging from $100 to $1000. This
situation makes it impossible to allocate “equipment” to the other funding sources. They of
course demand “ownership,” therefore making defined “equipment” solely their property. This
is a very difficult position….

…The stated recommendation, #2, “require Proteus Inc. to revise its policies to ensure costs that
benefit more than one cost objective are properly allocated and all cost objectives bear their fair
share of costs.” This recommendation is asking the impossible, to allocate equipment as legally
defined by organizations and “share” equipment. This appears to be an issue which needs
attention and direction from ETA as to how can an organization split cost on a locally defined
piece of equipment. Certainly if the equipment threshold was mandated to the Federal level then
any item(s) under $5000 would be allocable….

Re: Questioned costs of $12,591 (Computer Upgrades):

….These costs were charged appropriately. The Data collection system was storing only
Farmworker client information and the system was only reporting to the NFJP office and SPR
using this client data. No other funding source client data was stored on this server during this
period. The benefit was to the DOL contract as required by WIA and ETA…..

….The definition used via the audit to review the Data Managers timecard for work-hours and
therefore allocation method based on the “snapshot” of the purchase date is not valid….The
employee certainly has other responsibilities which are allocated based on actual hours
benefited to other contracts and using a template is inaccurate in this circumstance….

Auditor’s Comments

We do not believe that the other funding sources’ lower equipment thresholds are reasons to
justify the charging of equipment purchases to the DOL grant. OMB has the stance that if a grant
does not allow the charging of indirect costs, then those costs must be paid out of non-Federal
funds and not be arbitrarily charged to other grants. We take this same position with the
equipment charges in question. If equipment is purchased that benefits several funding sources,
the more restrictive rules of the lower level funding sources should not be the basis for charging
the full purchase price to the DOL grant.

Proteus Inc. has a cost allocation plan which includes allocation accounts for warehouse costs
and building costs. Included in the descriptions of costs covered under the heading of “Supplies
and Equipment” is a line item for equipment purchases. We believe that through the utilization
of the building costs allocation account or other similar policy that an equitable method of

                                                 7
distribution could be put into place.

With respect to the data collection upgrades that were questioned, our audit evidence gathered at
the time of fieldwork was to the contrary. Through both observation and inquiry we reviewed the
computer servers in operation and found the items questioned in our finding were being used to
support all the operations at the main office of Proteus. They were being used as the local area
network system that supported all the accounting operations in addition to the data management
function addressed in the Proteus response.

Our calculation for questioned costs for the computer equipment was not based on the Data
Managers timecard but rather on the overall time charges used in the distribution of the building
and warehouse allocation accounts mentioned above. Since the computers were used in the
overall operation we looked at the total time charged to see how much time was spent on the
DOL grant in relation to the other funding sources.




                                                8
2. Equipment Purchase Over $5,000 Was Made Without Prior DOL Approval

Proteus Inc. purchased a scanner costing $7,234 and charged the entire amount to the DOL grant
without obtaining prior approval. The Special Clauses and Conditions section of the grant
requires that the grantee obtain prior approval from the DOL/ETA grant officer before
purchasing equipment costing over $5,000.

Recommendations:

We recommend that the Assistant Secretary for ETA:

   1.    Recover the $7,234 questioned.

   2.    Require Proteus Inc. to develop the necessary policies and procedures to comply with
         grant conditions.

Auditee’s Response

…Proteus Inc. submits to DOL an itemized budget, which designates dollars for Equipment
purchasing…..An approved budget, verified by the Grant Office signature is in itself “pre-
approval” of potential purchases…

Auditor’s Comments

Proteus Inc. does submit a more detailed budget than most other grantees. This budget does
include a line item for equipment purchases. However the special conditions of the grant require
detailed descriptions along with price quotes for the proposal to be considered a pre-approval.
The budget proposed did not include this level of detail. In the absence of this documentation the
equipment purchases must be approved on an individual basis. No advance approval was
obtained for this item.




                                                9
3. Performance Data Reported to ETA Not Supported

The totals in the performance data reported to ETA for the program year ended June 30, 2001,
were not supported by the electronic database totals provided to us for selecting our sample. The
grantee staff told us that the performance tracking system was in the process of being replaced at
the end of the program year, and a combination of computer and manual counts were used to
accumulate the information reported on the Program Status Summary. However, we were unable
to obtain any support that agreed to the numbers that were reported to ETA.

In response to this finding, Proteus Inc. prepared a new program status summary based on new
computerized data, for the period of the audit. The revised figures are properly supported, and
shown in the Schedule of Performance Reported (Schedule B).

We selected a sample of participants who exited the program, and found that the documentation
in the participant file supported the data reported to ETA. Therefore, our performance finding
relates only to the overall database problems noted above.

Recommendations:

We recommend that ETA:

   1. Accept the new program status summary as an amended report, and review what effect
      the changes will have on the performance goals for the period.

   2. Require Proteus Inc. to revise its reporting procedures to ensure that all reports submitted
      to ETA are properly supported.

Auditee’s Response

…We concur with the third (finding) in reference to Data reporting.




                                                10
                                                                                Schedule A

                                            PROTEUS INC.
                                             VISALIA, CA

                                SCHEDULE OF COSTS REPORTED
                                 Program Year Ended June 30, 2001


                                Financial Status Report        Reported

                                1. Classroom Training        $ 2,437,626
                                2. On the Job Training                 -
                                3. Work Experience                     -
                                4. Training Assistance                 -
                                5. Services Only                       -
                                6. Administration                585,119
                                7. Total                     $ 3,022,745

Terms Used Above

Classroom Training    Expenses related to participants who were provided some form of organized classroom
                      training. Generally includes tuition costs, stipends, and support provided while in
                      training.

On the Job Training   Expenses paid to reimburse an employer for half of the wages paid to a participant
                      during a contractual training period. Also includes support paid to the participant.

Work Experience       Wages paid to a participant placed in a job by the grantee in order to assist the
                      participant by gaining practical work experience.

Training Assistance   This is a category carried over from JTPA generally not used under WIA reporting.

Services Only         Expenses related to participants that are only provided support services, with no
                      enrollment in training programs.

Administration        Salaries and overhead costs related to general administration of the program and not
                      directly providing program services. Costs are limited under the grant agreement.

All Other Program     Salaries and overhead related to overall running of the program not broken out in any
                      category above.




                                                    11
                                                                                     Schedule A-1

                                       PROTEUS INC.
                                        VISALIA, CA

                           SCHEDULE OF COSTS REPORTED
                                Supplemental Information
                            Program Year Ended June 30, 2001

                                                      Incurred
              Category                                  Costs        Subtotals

              1. Classroom Training
                 A. Salaries and Fringe Benefits      $ 1,389,223
                 B. Office Costs & Overhead               504,016
                 C. Participant Tuition                   196,472
                 D. Supportive Services                   109,986
                 E. Work Experience Salaries               88,480
                 F. OJT Contract Payments                  79,127
                 G. Allowances                             70,322     2,437,626

              2. On the Job Training                  $          0               0

              3. Services Only                        $          0               0

              4. Training Assistance                  $          0               0

              5. Work Experience                      $          0               0

              6. Administration
                 A. Salaries and Fringe Benefits      $ 425,822
                 B. Office Costs & Overhead             159,297         585,119

              7. Total                                $ 3,022,745    $ 3,022,745


Note: The above information is not required to be reported to ETA, and was created by reviewing the
financial records used in the preparation of the Financial Status Report.




                                              12
                                                                                       Schedule B


                                              PROTEUS INC.
                                               VISALIA, CA

                          SCHEDULE OF PERFORMANCE REPORTED
                              Program Year Ended June 30, 2001

      Category                                                  Planned       Reported*       Amended

      Total Participants                                               491             558             507
       Total Terminations                                              415             403             358
         Entered Unsubsidized Employment                               240             235             188
             Direct Placement                                            -               -               -
             Indirect Placement                                          -               -               -
         Also Obtained Employability Enhancement                         -               -               -
         Employment Enhancement Only                                     -               -              23
         Services Only                                                   -               -              43
         All Other Terminations                                        175              62             104
       Total Current Participants (End of Period)                       76             155             149




* The performance data reported to ETA was unsupported by documentation as discussed in Finding No. 3. The
grantee reviewed all available data to prepare a revised Program Status Summary subsequent to our fieldwork. This
revised data is shown under the amended heading.

                                                       13
                                                           Schedule B-Continued

                                  PROTEUS INC.
                                   VISALIA, CA

                     SCHEDULE OF PERFORMANCE REPORTED
                         Program Year Ended June 30, 2001

Terminology Used

Participants                         Disadvantaged migrant and seasonal farmworkers
                                     and their dependents.

Total Participants                   Participants that were provided any services during
                                     the program year. Includes participants carried
                                     over, new participants, and those exiting during the
                                     program year.

Total Terminations                   Participants who exited the program during the year.

Entered Unsubsidized Employment      Participants placed in a non-federally subsidized
                                     job.

Direct Placement                     Participants referred directly to a job with no
                                     training services provided. (Detail not required to
                                     be reported under WIA).

Indirect Placement                   Participants placed in a job after training or
                                     enhancement services. (Detail not required to be
                                     reported under WIA).

Also Obtained Employability
Enhancement                          Participants placed that also received services
                                     improving job prospects, such as completing GED
                                     program, obtaining a degree, completing
                                     occupational training. (Detail not required to be
                                     reported under WIA).

Employment Enhancement Only          Participants not placed in a job, but exiting the
                                     program with enhancements to improve job
                                     prospects. (Detail not required to be reported under
                                     WIA).




                                       14
Services Only            Participants that exited the program with support
                         services only, with no training or referral to
                         employment.

All Other Terminations   Participants that exited the program that do not fall
                         into any other termination category.




                           15
             Appendix A
Response to Draft Report by Proteus Inc.




                   16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
